Office of Audits
Audit Report No. AUD-11-006


In-Depth Review of the Failure of
The Gordon Bank, Gordon, Georgia




This report includes an addendum with management’s
June 7, 2011 revised response to the final report and the
Office of Inspector General’s evaluation of management’s
revised response.




                                               May 2011
                                       Executive Summary

                                       In-Depth Review of the Failure of
                                       The Gordon Bank, Gordon, Georgia
                                                                                         Report No. AUD-11-006
                                                                                                      May 2011

Why We Did The Audit

On October 22, 2010, the Georgia Department of Banking and Finance (DBF) closed The Gordon Bank
(Gordon), Gordon, Georgia, and the FDIC was appointed receiver. On November 18, 2010, the FDIC notified
the Office of Inspector General (OIG) that Gordon’s total assets at closing were $30.5 million and the
estimated loss to the Deposit Insurance Fund (DIF) was $8.6 million. As of January 31, 2011, the estimated
loss had increased to $8.9 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection
Act (the Financial Reform Act). The Financial Reform Act amends section 38(k) of the Federal Deposit
Insurance Act (FDI Act) by increasing the material loss review (MLR) threshold from $25 million to
$200 million for losses that occur for the period January 1, 2010 through December 31, 2011. Although the
estimated loss for Gordon does not meet the amended threshold requiring an MLR, we determined that unusual
circumstances exist because examinations of the institution between 2006 and 2008 did not satisfy the
minimum frequency requirements defined in the FDI Act. Accordingly, we initiated an In-Depth Review as
authorized by the Financial Reform Act.

The objectives of the review were to (1) determine the causes of Gordon’s failure and the resulting loss to the
DIF and (2) evaluate the FDIC’s supervision of Gordon, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act. A primary area of focus during the review
was the frequency of on-site risk management examinations in the several years preceding the bank’s failure.


Background

Gordon was established in 1946 as a state-chartered nonmember bank. At the time of its closing, the
institution operated a single office in the small rural community of Gordon, which is located approximately
100 miles southeast of Atlanta, Georgia. Gordon’s lending activities focused primarily on real estate,
including commercial real estate (CRE) and acquisition, development, and construction (ADC). Because local
loan demand was low in 2005 and 2006, management purchased loan participations from other institutions.
The majority of these loan participations pertained to out-of-area ADC projects. Gordon also maintained a
securities portfolio that included preferred shares in the Federal National Mortgage Association (Fannie Mae)
and the Federal Home Loan Mortgage Corporation (Freddie Mac).


Audit Results

Causes of Failure and Loss
According to supervisory records and institution data that we reviewed, Gordon failed primarily because its
Board of Directors (Board) and management did not effectively manage the risks associated with the bank’s
concentration in ADC loans. Between 2004 and 2007, the bank increased its ADC loans from $3.8 million (or
17 percent of total loans) to $11.1 million (or 40 percent of total loans). Much of this growth resulted from
purchasing loan participations from other financial institutions. However, Gordon did not perform adequate
due diligence before it acquired the loan participations, and many of the participations were not adequately
underwritten or properly administered thereafter.




                                   To view the full report, go to www.fdicig.gov
   Executive Summary
                                        In-Depth Review of the Failure of
                                        The Gordon Bank, Gordon, Georgia
                                                                                          Report No. AUD-11-006
                                                                                                       May 2011

After the Georgia real estate market weakened in 2007, the quality of Gordon’s loan portfolio deteriorated.
Adding to Gordon’s financial problems were losses of approximately $1.8 million pertaining to the bank’s
preferred shares in Fannie Mae and Freddie Mac. Gordon’s financial condition continued to deteriorate during
2009 and 2010, with the majority of problems centered in ADC loans. The losses and provisions associated
with Gordon’s loan portfolio and securities investments eliminated the bank’s earnings and depleted its capital.
The DBF closed Gordon on October 22, 2010 because the institution was unable to raise sufficient capital to
support its operations, and its condition was deemed to be unsafe and unsound.

The FDIC’s Supervision of Gordon
The FDIC, in coordination with the DBF, provided supervisory oversight of Gordon through on-site risk
management examinations, visitations, and various off-site monitoring activities. The FDIC determined that
Gordon’s overall condition was satisfactory until the October 2008 examination, at which time the FDIC
identified significant financial deterioration and downgraded the bank’s supervisory composite rating from a
“2” to a “5.” Based on the results of the examination, the FDIC and the DBF issued a cease and desist order
on May 11, 2009 that, among other things, required Gordon to have and retain qualified management, improve
its lending and collection policies, and strengthen its capital position. At that time, the bank’s lending markets
were deteriorating, making remedial efforts difficult. The FDIC and the DBF also conducted visitations in
May 2009 and July 2010. These visitations found the bank’s financial condition to be critically deficient.

Examinations of Gordon between 2006 and 2008 did not satisfy the minimum frequency requirements defined
in the FDI Act. Specifically, the length of time between the June 2006 examination and the October 2008
examination was approximately 8 months longer than permitted by the statute. The FDIC made a risk-based
decision to postpone an examination of Gordon in 2008 based on limited resources and higher priority
concerns pertaining to other institutions that were experiencing significant financial deterioration. An earlier
examination of Gordon would likely have identified deterioration in the bank’s financial condition, potentially
resulting in earlier supervisory actions. However, the majority of assets that caused Gordon to fail had been
acquired prior to 2008. In this regard, FDIC officials with whom we spoke indicated that it is unlikely that an
earlier examination or supervisory actions would have materially affected the course of the bank’s financial
decline or the cost to the DIF.

With respect to PCA, the FDIC implemented supervisory actions that were consistent with relevant provisions
of section 38. As discussed in the report, the FDIC did not request a capital restoration plan from Gordon
when it became Critically Undercapitalized. Doing so would have been consistent with FDIC policy and
would have provided an additional avenue for ensuring the Board’s awareness of its responsibility under
section 38 to submit an acceptable capital restoration plan. The FDIC implemented various supervisory
activities that served to mitigate the effect of Gordon’s failure to submit a capital restoration plan.

Management Response

On May 5, 2011, the Director of the FDIC’s Division of Risk Management Supervision provided a written
response to a draft of this report. In the response, the Director reiterated the OIG’s conclusions regarding the
causes of Gordon’s failure and described key supervisory actions that the FDIC and the DBF took to address
the bank’s deteriorating financial condition. The response also referenced guidance that had been issued in
2006 and 2008 re-emphasizing the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations. The response did not specifically
address the issue described in the report pertaining to examinations that did not satisfy the minimum frequency
requirements defined in the FDI Act.


                                    To view the full report, go to www.fdicig.gov
                                 Contents
                                                                    Page
Background                                                            2

Causes of Failure and Loss                                            3

The FDIC’s Supervision of Gordon                                      4
   Frequency of Examinations for Gordon                               5
   Implementation of PCA                                              6

Corporation Comments                                                  8

Appendices 
  1. Objectives, Scope, and Methodology                              10
  2. Glossary of Terms                                               12
  3. Acronyms                                                        14
  4. Corporation Comments                                            15

Tables
   1. Select Financial Information for Gordon, 2004-2009              3
   2. On-site Examinations and Visitations of Gordon                  4
   3. Gordon’s Capital Levels, 2005-2010                              7

Addendum
  1. Events Leading to Management Providing a Revised                17
     Management Response
  2. Management’s Revised Response to the Final Report               18
  3. OIG Evaluation of Management’s Revised Response to the Final    19
     Report
Federal Deposit Insurance Corporation                                                         Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                          Office of Inspector General


DATE:                                     May 11, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Mark F. Mulholland
                                          Deputy Assistant Inspector General for Audits

SUBJECT:                                  In-Depth Review of the Failure of The Gordon Bank,
                                          Gordon, Georgia (Report No. AUD-11-006)


On October 22, 2010, the Georgia Department of Banking and Finance (DBF) closed The
Gordon Bank (Gordon), Gordon, Georgia and the Federal Deposit Insurance Corporation
(FDIC) was appointed receiver. On November 18, 2010, the FDIC notified the Office of
Inspector General (OIG) that the bank’s total assets at closing were $30.5 million and that
the estimated loss to the Deposit Insurance Fund (DIF) was $8.6 million. As of
January 31, 2011, the estimated loss had increased to $8.9 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (the FDI Act) by increasing the
threshold for a material loss review (MLR) from $25 million to $200 million for losses
that occur for the period January 1, 2010 through December 31, 2011. The Financial
Reform Act also requires the OIG to review all other losses incurred by the DIF to
determine (a) the grounds identified by the state or Federal banking agency for
appointing the Corporation as receiver and (b) whether any unusual circumstances exist
that may warrant an in-depth review (IDR) of the loss. Although the estimated loss for
Gordon does not meet the amended threshold requiring an MLR, we determined that
unusual circumstances exist because examinations of the institution between 2006 and
2008 did not satisfy the minimum frequency requirements defined in the FDI Act.
Accordingly, we initiated an IDR as authorized by the Financial Reform Act.

The objectives of the review were to (1) determine the causes of Gordon’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Gordon, including
the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section
38 of the FDI Act. A primary area of focus during the review was the frequency of on-
site risk management examinations in the several years preceding the bank’s failure.

This report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss and
in-depth reviews, we will communicate those to FDIC management for its consideration.
As resources allow, we may also conduct more comprehensive reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.
This report includes several appendixes. Appendix 1 contains details on our objectives,
scope, and methodology; Appendix 2 contains a glossary of key terms; Appendix 3
contains a list of acronyms; and Appendix 4 contains management’s written comments on
a draft of this report.

We note that, in conjunction with other organizational changes made to enhance the
FDIC’s ability to carry out its new and enhanced responsibilities under the Financial
Reform Act, the Division of Supervision and Consumer Protection (DSC) became the
Division of Risk Management Supervision effective February 13, 2011. As a result of
the timing of our review and draft report issuance, we refer to DSC throughout this
report.


Background
Gordon was established in 1946 as a state-chartered nonmember bank. In 1994, the
institution converted to a federally chartered savings and loan association to facilitate an
expansion into Florida. However, Gordon’s entry into Florida was poorly executed, and
by 2002 the bank was operating under a supervisory agreement with the Office of Thrift
Supervision. In an effort to improve its financial condition, Gordon exited the Florida
market in 2003. In 2004, the institution converted back to a state charter and its financial
condition improved.

Gordon’s lending activities focused primarily on real estate, including commercial real
estate (CRE) and acquisition, development, and construction (ADC). Because local loan
demand was low in 2005 and 2006, management purchased loan participations from
other institutions, including FirstCity Bank of Stockbridge, Georgia, which failed on
March 20, 2009. The majority of loan participations purchased by Gordon pertained to
out-of-area ADC projects. In addition to its lending activities, Gordon maintained a
securities portfolio that included preferred shares in the Federal National Mortgage
Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie
Mac).1

At the time of its closing, Gordon operated a single office in the small rural community
of Gordon, which is located approximately 100 miles southeast of Atlanta, Georgia. The
bank was one of two institutions in a chain banking organization controlled by the family
of an individual who served as both a Director and the Chief Executive Officer of
Gordon. The other institution in the chain organization did not fail. Table 1 summarizes
select financial information pertaining to Gordon for the calendar year ended 2009 and
for the preceding 5 calendar years.




1
  Fannie Mae and Freddie Mac are Government Sponsored Enterprises (GSE). See the glossary for more
information on Fannie Mae and Freddie Mac.

                                                 2
Table 1: Select Financial Information for Gordon, 2004-2009
    Financial Measures
         ($000s)             Dec-09        Dec-08       Dec-07       Dec-06        Dec-05       Dec-04

        Total Assets          30,620       34,988        39,271       39,676       40,327       38,068

       Total Deposits         26,577       29,239        30,869       31,677       31,119       31,077

        Total Loans           16,142       22,657        27,041       28,370       28,713       21,055

    CRE to Total Capital      547%          555%         324%         346%          282%         182%

    ADC to Total Capital      277%          3077%        175%         182%          133%          56%

     Net Income (Loss)        -1,191       -3,145          412 45          0          345         133
Source: Uniform Bank Performance Reports (UBPR) for Gordon.



Causes of Failure and Loss
According to supervisory records and institution data that we reviewed, Gordon failed
primarily because its Board of Directors (Board) and management did not effectively
manage the risks associated with the bank’s concentration in ADC loans.2 Between 2004
and 2007, the bank increased its ADC loans from $3.8 million (or 17 percent of total
loans) to $11.1 million (or 40 percent of total loans). Much of this growth resulted from
purchasing out-of-area loan participations from other financial institutions. However,
Gordon did not perform adequate due diligence before it acquired the loan participations,
and many of the participations were not adequately underwritten or properly administered
thereafter. For example, the institution did not conduct sufficient global cash flow
analyses of borrowers, verify borrower cash positions, or inspect construction sites before
disbursing funds. Further, Gordon did not adequately monitor conditions in its ADC
lending markets or perform stress testing of its loan portfolio to assess the impact of a
sustained downturn in the real estate market.

After the Georgia real estate market began to weaken in 2007, the quality of Gordon’s
loan portfolio deteriorated. By the close of 2008, nearly 30 percent of the institution’s
loan portfolio was in a non-accrual status. Adding to Gordon’s financial problems were
losses of approximately $1.8 million pertaining to the bank’s preferred shares in Fannie
Mae and Freddie Mac.3 Gordon’s financial condition continued to deteriorate during
2009 and 2010, with the majority of problems centered in ADC loans. The losses and
provisions associated with Gordon’s loan portfolio and securities investments eliminated
the bank’s earnings and depleted its capital. The DBF closed Gordon on October 22,
2010 because the institution was unable to raise sufficient capital to support its
operations, and its condition was deemed to be unsafe and unsound.

2
  In analyzing the causes of Gordon’s failure and loss to the DIF, we relied primarily on examination and
visitation reports, an August 9, 2010 Supervisory History for Gordon prepared by DSC, and institution data
in Consolidated Reports of Condition and Income (Call Report), UBPRs, and the FDIC’s Virtual
Supervisory Information on the Net system.
3
  On September 7, 2008, the Director of the Federal Housing Finance Agency placed Fannie Mae and
Freddie Mac into conservatorship, eliminating much of the market value of the GSE’s preferred shares.

                                                    3
The FDIC’s Supervision of Gordon
The FDIC, in coordination with the DBF, provided supervisory oversight of Gordon
through on-site risk management examinations, visitations, and various off-site
monitoring activities.4 As described later, on-site examinations of the institution between
2006 and 2008 did not satisfy the minimum frequency requirements defined in the FDI
Act. The FDIC made a risk-based decision to postpone an examination of Gordon during
2008 based on limited resources and higher priority concerns pertaining to other
institutions that were experiencing significant financial deterioration. Table 2
summarizes key supervisory information pertaining to Gordon in the years preceding its
failure.

Table 2: On-site Examinations and Visitations of Gordon
                                                                                    Informal or
                      Examination                             Supervisory
    Start Date                            Regulator(s)                             Formal Action
                      or Visitation                          Ratings (UFIRS)
                                                                                      Taken*

                                                                                  C&D Remained in
    07/12/2010          Visitation       FDIC and DBF                 -               Effect
                                                                                  C&D Remained in
    11/19/2009          Examination       FDIC and DBF            555544/5            Effect
                                                                                  C&D Remained in
    05/18/2009          Visitation        FDIC and DBF           554533/5             Effect
                                                                                   C&D Effective
    10/06/2008          Examination          FDIC                554543/5          May 11, 2009
    06/29/2006          Examination          DBF                 122222/2              None
                                                                                   BBR Remained in
    12/06/2004          Examination         FDIC                 122312/2             Effect**
Source: OIG analysis of examination and visitation reports and the May 2009 C&D.
*Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memoranda of
Understanding. Formal enforcement actions often take the form of Cease and Desist Orders (C&D), but
under severe circumstances, can also take the form of insurance termination proceedings.
** Gordon entered into a BBR in July 2004 to address regulatory concerns cited during a May 2004 charter
conversion examination.

Gordon’s overall financial and operational condition was considered satisfactory until the
October 2008 examination, which was based on financial information as of June 30,
2008. During that examination, the FDIC identified significant financial deterioration
and downgraded the bank’s supervisory composite rating from a “2” to a “5.” The FDIC
advised Gordon’s Board and management of the concerns identified during the
examination, including the bank’s significant exposure to ADC loans in a weakening real
estate market, poor loan underwriting and credit administration practices (particularly
with respect to loan participations), and weak investment management practices. Based
on the results of the examination, the FDIC and the DBF issued a C&D on May 11, 2009
that included requirements for Gordon to:

    •   Have and retain qualified management.

4
  The FDIC’s off-site monitoring activities generally consisted of contacting the bank’s management from
time to time to discuss current and emerging business issues and using automated tools to analyze
information in Gordon’s Call Reports to identify potential supervisory concerns.

                                                    4
    •    Maintain Tier 1 Capital and Total Risk-based Capital ratios of at least 8 percent
         and 10 percent, respectively.

    •    Reduce the amount of its classified assets.

    •    Improve its lending and collection policies.

    •    Revise its investment policy.

At the time the C&D was issued, the bank’s lending markets had already experienced a
significant deterioration, making remedial efforts difficult. The FDIC and DBF
conducted a visitation in May 2009 to follow up on the issues identified during the
October 2008 examination. The FDIC and DBF also conducted a visitation in July 2010
to assess the condition of the bank and management’s efforts to comply with the
May 2009 C&D. Both visitations found that the bank’s financial condition was critically
deficient. As previously stated, the DBF closed Gordon in October 2010.

Frequency of Examinations for Gordon

On-site examinations are considered one of the most important aspects of the bank
supervisory process. In that regard, Section 10(d) of the FDI Act states that the
appropriate Federal banking agency shall, not less than once during each 12-month
period, conduct a full-scope, on-site examination of each insured depository institution.
According to the Act, the annual examination interval may be increased to 18 months for
small institutions that meet certain conditions.5 Because Gordon was considered a small
institution and met the conditions defined in the FDI Act, the institution was on an
18-month examination cycle prior to October 2008.

For purposes of measuring compliance with the examination frequency requirements of
the FDI Act, Section 1.1 of the FDIC’s Risk Management Manual of Examination
Policies (Examination Manual) defines how the 12- and 18-month examination cycles
should be measured. Specifically, the Examination Manual states that the length of time
between the end of one examination and the start of the next examination should not
exceed 12 (or 18) months, regardless of whether one or both of the examinations are
conducted by a state supervisory agency or the FDIC. The Examination Manual defines
the end of an examination as the earlier of (1) the date that the examination report is
submitted for FDIC review or (2) 60 calendar days from the examination start date. The
FDIC’s Report of Examination Instructions defines the examination start date as the date
when the examination team begins the formal on-site examination of the institution.



5
  The examination interval may be extended to 18 months for institutions that: (1) have total assets of less
than $500 million; (2) are Well Capitalized as defined in section 38; (3) are determined to be well-managed
during the most recent examination; (4) have an outstanding composite condition (or an outstanding or
good composite condition in the case of institutions with total assets of $100 million or less); (5) are not
subject to a formal enforcement proceeding or order; and (6) have not experienced a change in control
during the preceding 12-month period in which a full-scope, on-site examination would have been required
but for the above noted exceptions. (See Section 10(d)(4) of the FDI Act, 12 U.S.C. § 1820(d)(4).)

                                                     5
Using the criteria in the Examination Manual, the June 2006 examination of Gordon
ended on July 26, 2006. Therefore, the next examination should have started no later
than January 26, 2008. However, the actual start date for the next examination was
October 6, 2008, approximately 8 months later than permitted by the Examination
Manual and the FDI Act. The Atlanta Regional Office documented the decision to
postpone the examination of Gordon in quarterly examination delinquency reports6
submitted to DSC’s Washington, D.C., Office.

DSC officials in the Atlanta Regional Office and the Atlanta Field Office advised us that
they made a risk-based decision to postpone the examination of Gordon based on limited
resources and higher priority concerns pertaining to other institutions that were
experiencing significant financial deterioration. DSC officials explained that several
factors supported their decision to postpone the examination. Specifically, Gordon had a
satisfactory composite rating, was Well Capitalized for purposes of PCA, and was not
showing signs of significant financial deterioration based on off-site monitoring. In
addition, Gordon was among the smallest institutions in terms of total assets that the
Atlanta Regional Office supervised and, therefore, posed lesser risk to the DIF than other
institutions.

DSC took a number of steps during 2008 to better align examination resources in the
Atlanta Regional Office with the rapid deterioration in the banking sector. Among other
things, the division hired additional examiners, assigned examiners from other regional
offices to assist with the examination workload, and coordinated with the DBF to
leverage limited examination resources.

As previously stated, the FDIC identified significant financial deterioration during the
October 2008 examination of Gordon and downgraded the bank’s supervisory composite
rating from a “2” to a “5.” An earlier examination of Gordon would likely have
identified deterioration in the bank’s financial condition, potentially resulting in earlier
supervisory actions that may have mitigated, to some extent, the problems experienced by
the bank. However, the majority of assets that caused Gordon to fail had been acquired
prior to 2008. Notably, many of the ADC loans classified by examiners during the
October 2008 examination had been purchased by Gordon in 2006. In this regard, FDIC
officials with whom we spoke indicated that it is unlikely that an earlier examination or
supervisory actions would have materially affected the course of the bank’s financial
decline or the cost to the DIF.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of
section 38 is to resolve problems of insured depository institutions at the least possible
long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and
6
 The examination delinquency reports identified institutions in the Atlanta Regional Office that were past
due for a required examination. The reports were submitted to the Washington, D.C., Office on a quarterly
basis until September 30, 2008. Beginning in October 2008, the reports were submitted on a monthly basis.

                                                    6
Regulations defines the capital measures used in determining the supervisory actions that
will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38. The FDIC is required to
closely monitor the institution’s compliance with its capital restoration plan, mandatory
restrictions defined under section 38(e), and discretionary safeguards imposed by the
FDIC (if any) to determine if the purposes of PCA are being achieved.

The FDIC implemented supervisory actions with respect to Gordon that were consistent
with the PCA provisions of section 38. Among other things, the FDIC notified the
institution’s Board when the bank became Critically Undercapitalized, monitored the
bank’s capital position, and held discussions with management regarding its efforts to
raise needed capital. However, as discussed below, the FDIC did not request a capital
restoration plan from Gordon when it became Critically Undercapitalized. Doing so
would have been consistent with FDIC policy in this area and would have provided an
additional avenue for ensuring the Board’s awareness of its responsibility under section
38 to submit an acceptable capital restoration plan. Table 3 illustrates Gordon’s capital
levels relative to the PCA thresholds for Well Capitalized institutions between
December 2005 and September 2010.

Table 3: Gordon’s Capital Levels, 2005-2010
                                Tier 1        Tier 1 Risk-    Total Risk-
      Period Ended             Leverage          Based          Based         PCA Capital Category
                                Capital         Capital        Capital
    Well Capitalized              5% or          6% or          10% or
      Thresholds                  more           more            more
 Gordon’s Capital Levels
       Dec-2005                  16.64%             23.00%          24.27%      Well Capitalized
       Dec-2006                  13.60%             18.96%          20.23%      Well Capitalized
       Dec-2007                  15.08%             20.11%          21.38%      Well Capitalized
       Dec-2008                  8.12%             11.39%          12.72%      Well Capitalized
       Dec-2009                  5.32%              8.83%          10.12%      Adequately Capitalized*
       Mar-2010                  5.26%             8.62%           9.92%       Adequately Capitalized
                                                                              Critically
          Jun-2010                1.05%            2.05%           3.35%      Undercapitalized
                                                                              Critically
          Sep-2010               -0.14%            -0.28%          -0.28%     Undercapitalized
Source: OIG analysis of UBPRs for Gordon.
*As described in the narrative below, Gordon was considered Adequately Capitalized for purposes of PCA at
the end of 2009 because the institution was operating under a C&D with a capital maintenance provision.

Gordon was considered Well Capitalized until May 11, 2009, at which time the FDIC and
DBF implemented a C&D against the bank. Although Gordon’s capital ratios were
above the PCA thresholds for Well Capitalized institutions at that time, the C&D had the
effect of lowering the bank’s PCA capital category to Adequately Capitalized because the
order contained a capital maintenance provision. The FDIC and DBF included a capital
maintenance provision in the C&D based on the results of the October 2008 examination,
which found the bank’s capital adequacy to be critically deficient. The October 2008
examination report stated that Gordon’s Board needed to immediately develop a capital
policy to ensure that the bank maintained a satisfactory capital position. The report

                                                   7
added that the capital policy needed to include, among other things, contingency plans for
raising additional capital.

Examiners noted during the November 2009 examination that Gordon had developed a
capital contingency plan. However, the plan was not considered adequate because it was
limited to increasing capital through internal means, such as shrinking assets and
increasing earnings through tighter expense control. The November 2009 examination
report stated that the bank needed to immediately revise its capital contingency plan to
address outside sources of capital, such as shareholders. During the July 2010 visitation,
examiners noted that the institution had not implemented a plan to obtain additional
capital and was not in compliance with the capital maintenance provision of the C&D.

In a letter dated August 2, 2010, the FDIC notified Gordon’s Board that, based on its
June 30, 2010 Call Report, the bank had fallen to a Critically Undercapitalized position.
The notification letter referenced a number of the restrictions imposed on Critically
Undercapitalized institutions and advised the Board to develop policies and procedures to
ensure compliance. Due to an oversight, the FDIC did not request a capital restoration
plan from Gordon as prescribed by FDIC policy.7 In addition, Gordon never submitted a
capital restoration plan to the FDIC. Requesting a capital restoration plan from Gordon
would have provided an additional avenue for ensuring the Board’s awareness of its
responsibilities under section 38.

The FDIC implemented various supervisory activities that served to mitigate the effect of
Gordon’s failure to submit a capital restoration plan under section 38. As discussed
above, the FDIC monitored and assessed the bank’s plans and efforts to improve its
capital position through on-site examinations and visitations. In addition, the FDIC held
discussions with the bank’s Board and management regarding their efforts to raise needed
capital and reviewed quarterly progress reports submitted by Gordon pursuant to the
May 2009 C&D that described the bank’s efforts to comply with the order’s capital
maintenance provision. Gordon’s efforts to raise needed capital were unsuccessful, and
on October 22, 2010, the institution was closed.


Corporation Comments
On May 5, 2011, the Director, DSC, provided a written response to a draft of this report.
That response is provided in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Gordon’s
failure and described key supervisory actions that the FDIC and the DBF took to address
the bank’s deteriorating financial condition. The response also referenced guidance that
had been issued in 2006 and 2008 re-emphasizing the importance of robust credit risk-
management practices for institutions with concentrated CRE exposures and set forth
broad supervisory expectations. The response did not specifically address the issue
7
 Regional Directors Memorandum 96-090, Use of Notification and Reconfirmation Letters Under Prompt
Corrective Action (“PCA”), states that PCA notification letters should request that the institution file a
capital restoration plan with the appropriate FDIC Regional Office.


                                                     8
described in the report pertaining to examinations that did not satisfy the minimum
frequency requirements defined in the FDI Act.




                                            9
                                                                             Appendix 1

                   Objectives, Scope, and Methodology
Objectives

Consistent with the Financial Reform Act and the FDI Act, the objectives of the review
were to (1) determine the causes of Gordon’s failure and the resulting loss to the DIF and
(2) evaluate the FDIC’s supervision of Gordon, including the FDIC’s implementation of
the PCA provisions of section 38 of the FDI Act. A key area of focus during the review
was the frequency of on-site risk management examinations for Gordon.

We conducted this performance audit from January 2011 to March 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

To achieve the objectives, we performed the following audit procedures:

   •   Analyzed key documentation pertaining to the supervision and failure of Gordon,
       including:

           o Examination and visitation reports issued by the FDIC and DBF between
             2004 and 2010.

           o Institution data in Call Reports, UBPRs, and the FDIC’s Virtual
             Supervisory Information on the Net system.

           o FDIC and DBF correspondence.

           o DSC’s Supervisory History for Gordon, dated August 9, 2010.

           o The failing bank case for Gordon presented to the FDIC’s Board of
             Directors.

           o Pertinent FDIC regulations, policies, procedures, and guidance.

   •   Spoke with selected DSC examination staff in the Washington, D.C., Office; the
       Atlanta Regional Office; and the Atlanta Field Office.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems and reports and


                                            10
                                                                                Appendix 1

                    Objectives, Scope, and Methodology
discussions with examination staff to understand Gordon’s management controls
pertaining to the causes of failure and loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives. Therefore, we did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. We did not assess the strengths and weaknesses of DSC’s
annual performance plan in meeting the requirements of the Results Act because such an
assessment was not part of the audit objectives. DSC’s compliance with the Results Act
is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations, particularly with respect to examination frequency. The results of our tests
are discussed, where appropriate, in the report. Additionally, we assessed the risk of
fraud and abuse related to our objectives in the course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR and IDR reports related to failures of FDIC-supervised institutions, and these
reports can be found at www.fdicig.gov. In addition, the OIG issued an audit report
entitled, Follow-up Audit of FDIC Supervision Program Enhancements (Report No.
MLR-11-010), in December 2010. The objectives of the audit were to (1) determine the
actions that the FDIC has taken to enhance its supervision program since May 2009,
including those specifically in response to the May 2009 memorandum, and (2) identify
trends and issues that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, Prompt Corrective Action, and section 39,
Standards for Safety and Soundness) in the banking crisis.



                                              11
                                                                                  Appendix 2

                                Glossary of Terms

Term                 Definition
Acquisition,     ADC loans are a component of CRE that provide funding for acquiring
Development, and and developing land for future construction, and that provide interim
Construction     financing for residential or commercial structures.
(ADC) Loans
Bank Board           A BBR is an informal commitment adopted by a financial institution’s
Resolution (BBR)     Board of Directors (often at the request of the FDIC) directing the
                     institution’s personnel to take corrective action regarding specific noted
                     deficiencies. A BBR may also be used as a tool to strengthen and
                     monitor the institution’s progress with regard to a particular component
                     rating or activity.
Call Report          Reports of Condition and Income, often referred to as Call Reports,
                     include basic financial data for insured commercial banks in the form of
                     a balance sheet, an income statement, and supporting schedules.
                     According to the Federal Financial Institutions Examination Council’s
                     (FFIEC) instructions for preparing Call Reports, national banks, state
                     member banks, and insured nonmember banks are required to submit a
                     Call Report to the FFIEC’s Central Data Repository (an Internet-based
                     system used for data collection) as of the close of business on the last
                     day of each calendar quarter.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator pursuant to 12 U.S.C., section 1818, to a bank or affiliated
                     party to stop an unsafe or unsound practice or a violation of laws and
                     regulations. A C&D may be terminated when the bank’s condition has
                     significantly improved and the action is no longer needed or the bank
                     has materially complied with its terms.
Commercial Real      CRE loans are land development and construction loans (including 1-to-
Estate (CRE)         4 family residential and commercial construction loans) and other land
Loans                loans. CRE loans also include loans secured by multifamily property and
                     nonfarm nonresidential property, where the primary source of repayment
                     is derived from rental income associated with the property or the
                     proceeds of the sale, refinancing, or permanent financing of the property.
Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to a certain industry,
                     person, entity, or affiliated group. These assets may, in the aggregate,
                     present a substantial risk to the safety and soundness of the institution.
Fannie Mae and       Fannie Mae and Freddie Mac are shareholder-owned corporations with
Freddie Mac          government charters. The organizations play a critical role in the U.S.
                     home mortgage market by purchasing home mortgages from original
                     lenders, repackaging them as mortgage-backed securities, and either
                     selling or holding them in their investment portfolios. Fannie Mae and
                     Freddie Mac purchased about 80 percent of all new home mortgages in
                     the United States during 2008, and their combined investment portfolios
                     held mortgage assets valued at $1.5 trillion as of June 30, 2008.


                                             12
                                                                                  Appendix 2

                               Glossary of Terms

Nonaccrual Status   The status of an asset, often a loan, that is not earning the contractual
                    rate of interest in the loan agreement, due to financial difficulties of the
                    borrower. Typically, interest accruals have been suspended because full
                    collection of principal is in doubt, or interest payments have not been
                    made for a sustained period of time. Loans with principal and interest
                    unpaid for at least 90 days are generally considered to be in a nonaccrual
                    status.
Preferred Shares    Preferred shares (or stock) are special-equity securities having
                    characteristics of both equity and debt instruments. Preferred shares are
                    senior in priority to common shares, but subordinate to bonds. Preferred
                    shares typically do not have voting rights, but the shares often have
                    priority over common shares in the payment of dividends and upon
                    liquidation. Preferred shares may carry a dividend that is paid prior to
                    any dividends to common stockholders.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. Seq. implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 U.S.C., section 1831(o), by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three undercapitalized categories.
Uniform Bank        The UBPR is an individual analysis of institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance.
Report (UBPR)       The report is produced by the FFIEC for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data in
                    Call Reports submitted by banks.

Uniform             Financial institution regulators and examiners use the UFIRS to evaluate
Financial           a bank’s performance in six components represented by the CAMELS
Institutions        acronym: Capital adequacy, Asset quality, Management practices,
Rating System       Earnings performance, Liquidity position, and Sensitivity to market risk.
(UFIRS)             Each component, and an overall composite score, is assigned a rating of
                    1 through 5, with 1 having the least regulatory concern and 5 having the
                    greatest concern.




                                             13
                                                                 Appendix 3

                            Acronyms
ADC      Acquisition, Development, and Construction
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk
CRE      Commercial Real Estate
DBF      Georgia Department of Banking and Finance
DIF      Deposit Insurance Fund
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FFIEC    Federal Financial Institutions Examination Council
IDR      In-depth Review
MLR      Material Loss Review
OIG      Office of Inspector General
PCA      Prompt Corrective Action
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                  14
                                                                             Appendix 4

                     Corporation Comments
   _________________________________________________________



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                     Division of Risk Management Supervision

                                                                           May 5, 2011


TO:               Mark Mulholland
                  Deputy Assistant Inspector General for Audits

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Response to Draft Audit Report Entitled, In-Depth Review of the
                  Gordon Bank, Gordon, Georgia (Assignment 2011-029)


Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted an In-Depth Review of The Gordon
Bank (Gordon), which failed on October 22, 2010. This memorandum is the response of the
Division of Risk Management Supervision (RMS) to the OIG’s Draft Report received on March
23, 2011.

Gordon failed due to the Board’s and management’s ineffective oversight of the risk associated
with the high concentration of acquisition, development and construction (ADC) loans. From
2004 to 2007 Gordon substantially increased its ADC loan portfolio in part with the purchase of
out-of-area loan participations that were not adequately underwritten. Loan provisions and losses
in securities investments eliminated earnings and depleted capital. Gordon was unable to raise
sufficient capital to operate in a safe and sound condition.

From 2004 through 2010, the FDIC and the Georgia Department of Banking and Finance
conducted four risk management examinations, two on-site visitations and off-site reviews. The
2008 FDIC examination found that Gordon’s overall condition had rapidly deteriorated, earnings
performance was critically deficient and capital did not support Gordon’s risk profile. As a
result, Gordon was downgraded and a Cease and Desist order was issued.

DSC issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter
to banks on Managing Commercial Real Estate Concentrations in a Challenging Environment in
2008 that re-emphasized the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and set forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.




                                                  15
Addendum




   16
        Events Leading to Management Providing a Revised
                  Response to the Final Report

On May 11, 2011, the OIG issued its final report on the In-Depth Review of the Failure of
The Gordon Bank, Gordon, Georgia. The review was conducted in accordance with
section 38(k) of the FDI Act, as amended by the Financial Reform Act. Although the
estimated loss for the institution did not meet the amended threshold requiring a material
loss review, the OIG determined that circumstances existed warranting an in-depth
review of the loss as authorized by the Financial Reform Act. Specifically, the OIG
determined that examinations of Gordon between 2006 and 2008 did not satisfy the
minimum frequency requirements defined in the FDI Act.

The OIG presented its final report on Gordon to the FDIC Audit Committee on May 20,
2011. During that presentation, it was noted that RMS’ written response to the report did
not specifically address the issue described in the report pertaining to the frequency of
Gordon’s examinations. As a result, members of the Audit Committee requested that
RMS provide the OIG with a revised response to the final report addressing this issue.

Management’s revised response, along with our evaluation of the response, follows.




                                           17
           Management’s Revised Response to the Final Report
_________________________________________________________



  Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                        Division of Risk Management Supervision

                                                                                June 7, 2011


 TO:                Mark Mulholland
                    Deputy Assistant Inspector General for Audits

                    /Signed/
 FROM:              Sandra L. Thompson
                    Director

 SUBJECT:           Response to Draft Audit Report Entitled, In-Depth Review of the Gordon
                    Bank, Gordon, Georgia (Assignment 2011-029)

 Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank Wall
 Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of
 Inspector General (OIG) conducted an In-Depth Review of The Gordon Bank (Gordon), which failed on
 October 22, 2010. This memorandum is the response of the Division of Risk Management Supervision
 (RMS) to the OIG’s Draft Report received on March 23, 2011.

 Gordon failed due to the Board’s and management’s ineffective oversight of the risk associated with the
 high concentration of acquisition, development and construction (ADC) loans. From 2004 to 2007
 Gordon substantially increased its ADC loan portfolio in part with the purchase of out-of-area loan
 participations that were not adequately underwritten. Loan provisions and losses in securities investments
 eliminated earnings and depleted capital. Gordon was unable to raise sufficient capital to operate in a safe
 and sound condition.

 From 2004 through 2010, the FDIC and the Georgia Department of Banking and Finance conducted four
 risk management examinations, two on-site visitations and off-site reviews. The 2008 FDIC examination
 found that Gordon’s overall condition had rapidly deteriorated, earnings performance was critically
 deficient and capital did not support Gordon’s risk profile. As a result, Gordon was downgraded and a \
 Cease and Desist order was issued.

 Regarding examination scheduling, the FDIC has a longstanding policy of allowing some limited
 administrative discretion to vary from prescribed examination timeframes in appropriate circumstances.
 The FDIC’s Legal Division has previously reviewed these policies and opined that the policies are a
 reasonable and permissible interpretation of the FDI Act by the FDIC. This “managed delinquency”
 process is tightly controlled, changes are tracked, and changes are reported to the RMS Director. As the
 OIG noted, the RMS Director was notified of the delayed examination schedule in the case of Gordon
 Bank. That delay largely reflected a determination by the Atlanta Regional Office that other institutions
 posed greater risks that needed to be addressed before Gordon Bank was examined.

 DSC issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter to banks
 on Managing Commercial Real Estate Concentrations in a Challenging Environment in 2008 that re-
 emphasized the importance of robust credit risk-management practices for institutions with concentrated
 CRE exposures and set forth broad supervisory expectations.

 Thank you for the opportunity to review and comment on the Report.

                                                    18
        OIG Evaluation of Management’s Revised Response

As shown on the prior page, on June 7, 2011, the Director, RMS, provided a written
response to our final report.

In its response, RMS reiterated the OIG’s conclusions regarding the causes of Gordon’s
failure and described key supervisory actions that the FDIC and the Georgia Department
of Banking and Finance took to address the bank’s deteriorating financial condition. The
response also referenced guidance that had been issued in 2006 and 2008 re-emphasizing
the importance of robust credit risk management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations.

With respect to the frequency of Gordon’s examinations, the response stated that the
FDIC has a longstanding policy of allowing some limited administrative discretion to
vary from prescribed examination timeframes in appropriate circumstances. According
to the response, the FDIC’s Legal Division has opined that this interpretation of the FDI
Act is reasonable and permissible. The response added that this “managed delinquency”
process is tightly controlled, and that changes are tracked and reported to the RMS
Director. Further, the response noted that the delay in examining Gordon largely
reflected a determination by the Atlanta Regional Office that other institutions posed
greater risks that needed to be addressed.

Management’s response adequately addresses our findings and conclusions.




                                            19
